CARD AGREEMENT

This Card Agreement is your contract with us. It governs the use of your card and account. The Supplemental Pricing
Information (“Supplement”) is part of this Agreement. Please read this Agreement, including the Supplement, carefully.
Keep them for your records.
Definitions
account means the relationship established between you and us by this Agreement.
APR means an annual percentage rate.
authorized user means any person you allow to use your account.
card means one or more cards or other access devices that we give you to get credit under this Agreement. This includes
account numbers.
we, us, and our mean Citibank, N.A., the issuer of your account. Citibank, N.A. is located in Sioux Falls, SD.
you, your, and yours mean the person who applied to open the account. It also means any other person responsible for
complying with this Agreement.
Your Account
You agree to use your account in accordance with this Agreement. You must pay us for all amounts due on your account.
This Agreement is binding on you unless you close your account within 30 days after receiving the card and you have not
used or authorized use of the card. Your account must only be used for lawful transactions.
Authorized Users. You may request cards for authorized users. You must pay us for any charges they make even if
you did not intend to be responsible for those charges. You agree that they may receive information about the account,
subject to any limitations we impose. You must tell us if you no longer want them to use your account.
Joint Accounts. If this is a joint account, each of you is responsible individually and together for all amounts owed. Each
of you is responsible even if the account is used by only one of you. You will continue to be liable for the entire balance of
the account, even if your co-applicant is ordered by a court to pay us. You will remain liable to us if your co-applicant fails
to pay as ordered by the court. Your account status will continue to be reported to the credit bureau under each of your
names. The delivery of notices or billing statements to either of you serves as delivery to each of you. We may rely on
instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Credit Limit. Your initial credit limit is on the card carrier. After that, your credit limit appears on your billing statement.
The full amount of your credit limit is available to use where the card is honored. We may reduce or increase your credit
limit at any time for any reason, as permitted by law. We will notify you of any change, but the change may take effect
before you receive the notice. You should always keep your total balance below the credit limit. However, if the total
balance goes over your credit limit you still must pay us. If your account has a credit balance, we may reduce the credit
balance by any new charges on your account. You may not maintain a credit balance in excess of your credit limit.
Billing Statement. Your billing statement shows the New Balance. This is the total amount you owe us on the Statement
Closing Date. To determine the New Balance, we begin with the total balance at the start of the billing cycle. We add any
purchases. We subtract any credits or payments. We then add any interest charges or fees and make other adjustments.
Your billing statement also shows your transactions; the Minimum Payment Due and payment due date; your credit limit;
and your interest charges and fees.
We deliver a billing statement to only one address. You must notify Customer Service of a change in address. We may
stop sending you statements if we deem your account uncollectible or start collection proceedings; but we may continue
to add interest and fees as permitted by law.
APRs
Variable APR Based on Prime. If any APR is based on the U.S. Prime Rate (“Prime Rate”), the APR will equal the
Prime Rate plus an additional amount. If the Prime Rate increases, it will cause the APR to increase. If the Prime Rate
decreases, it will cause the APR to decrease. For each billing cycle we use the Prime Rate published in The Wall Street
Journal two business days before the Statement Closing Date. If the Prime Rate causes an APR to change, we put the
new APR into effect as of the first day of the billing cycle for which we calculate the APR. We apply the new APR to any
existing balances, subject to any promotional rate that may apply. If The Wall Street Journal does not publish the Prime
Rate, we will use a similar published rate.
Purchase APR. See the Supplement.
Effect of APR Increases. If an APR increases, interest charges increase. Your minimum payment may increase as well.
Promotions
From time to time, we may make promotional offers for all or a part of any balances. A promotional offer may apply for a
limited period of time. Each promotional offer will be governed by the terms of that offer and this Agreement. We will tell
you the terms applicable to a promotional offer at the time we offer it to you.
For example:
• We may offer you a promotional APR on a specific purchase. The promotional APR will apply for a specific period of time
and then expire to a higher APR (which may be lower than the regular purchases APR). Before you make a purchase

subject to the offer, we will tell you the promotional APR and how long it will apply. We will also tell you the APR that will
apply after the promotional APR expires. We call this type of promotional offer a “Special Rate Plan.”
• If a promotional offer is a deferred interest offer, no interest charges will be imposed on the deferred interest balance if
you pay the balance in full by the end of the promotional period. We will impose interest charges on the deferred interest
balance at the APR for regular purchases from the date of purchase if you do not pay the balance in full by the end of
the promotional period. We call this type of promotional offer a “Deferred Interest Plan.”
• We may offer you a promotional APR on a specific purchase. The promotional APR will apply so long as any portion of
that purchase balance remains on the account. We call this type of promotional offer a “Major Purchase Plan.”
Interest Charges Based on APRs
Interest Charges. We impose interest charges when we apply APRs to your account balances. We do this every day by
using a daily periodic rate. To get a daily periodic rate, we divide the APR by 365.
When Interest Charges Begin. We begin to impose interest charges the first day we add a charge to a daily balance.
The charges we add to a daily balance include purchases, interest charges and fees. We continue to impose interest
charges until we credit your account with full payment of the total amount you owe us.
Grace Period on Purchases. You can avoid interest charges on purchases. This is called a grace period on purchases.
The grace period is at least 25 days. To get a grace period on purchases, you must pay the New Balance by the payment
due date every billing cycle. If you do not, you will not get a grace period until you pay the New Balance for two billing
cycles in a row.
You do not need to pay certain promotional purchase balances in full by the payment due date each month to get a grace
period on your other purchase balances. On a particular payment due date, you do not need to pay the following types
of purchase balances in full (“excluded balances”) to keep your grace period, as long as you pay in full all other purchase
balances on the account by that due date:
• a Deferred Interest Plan balance if the promotional period does not expire on or before that due date;
• a Special Rate Plan balance; and
• a Major Purchase Plan balance.
However, you must still pay any separately required minimum monthly payment on each excluded balance. In billing
cycles in which payments are allocated to Deferred Interest Plan balances first, those Deferred Interest Plan balances
will be reduced before any other balance on the account. However, you will continue to get a grace period on purchases,
other than an excluded balance, so long as you pay the New Balance (less any excluded balance, plus any separately
required payment on an excluded balance) in full by the payment due date every billing cycle.
Calculation of Interest Charges – Daily Balance Method (Including Current Transactions). We calculate interest
charges each billing cycle. To do this:
• We start with each of your different balances. These balances include, for example, regular purchases and balances
in different promotional plans. (When we calculate interest charges, we treat each Deferred Interest Plan balance
separately even if it has the same terms as another Deferred Interest Plan balance.)
• We calculate the daily balance for each of your different balances. To get a daily balance, we start with the balance
as of the end of the previous day. We add any interest charge on the previous day’s balance. (This results in daily
compounding of interest charges.) We add any new charges. We then subtract any new credits or payments.
• We multiply each daily balance by the daily periodic rate that applies to it. We do this for each day in the billing cycle.
This gives us the daily interest charges for each of your different balances.
• We add up all the daily interest charges. The sum is the total interest charge for the billing cycle.
• You authorize us to round interest charges to the nearest cent.
When we calculate daily balances, we add a purchase as of the Transaction Date. The Transaction Date is shown on the
billing statement. We add a transaction fee to the same balance as the transaction. We subtract a payment or credit as of
the day it is credited to the account and then make other adjustments. We treat a credit balance as a balance of zero.
Minimum Interest Charge. If we charge you interest, the charge will be no less than $2. We add the charge to the
regular purchase balance or allocate it among one or more of the balances that accrues interest.
Balance Subject to Interest Rate. Your statement shows a Balance Subject to Interest Rate. It shows this for each
different balance. The Balance Subject to Interest Rate is the average of the daily balances during the billing cycle. A
billing cycle begins on the day after the Statement Closing Date of the previous billing cycle. It includes the Statement
Closing Date of the current billing cycle.
Fees
Transaction Fee for Major Purchase Plans. For Major Purchase Plans entered into prior to July 1, 2020, the following
terms apply. For each purchase made under a Major Purchase Plan promotion when your minimum payment will pay
off the promotional balance in 24 to 41 months, we add a major purchase plan fee of $49 to the Major Purchase Plan
purchase amount. For each purchase made under a Major Purchase Plan promotion when your minimum payment will
pay off the promotional balance after more than 41 months, we add a major purchase plan fee of $149 to the Major
Purchase Plan purchase amount. For Major Purchase Plans entered into on or after July 1, 2020 the following terms

apply. For each purchase made under a Major Purchase Plan promotion when your minimum payment will pay off the
promotional balance in 18 to 23 months, we add a major purchase plan fee of $50 to the Major Purchase Plan purchase
amount. For each purchase made under a Major Purchase Plan promotion when your minimum payment will pay off the
promotional balance after more than 23 months, we add a major purchase plan fee of $150 to the Major Purchase Plan
purchase amount.
Late Fee. We may add a late fee for each billing cycle in which you have a past due payment. For late fee purposes, you
have a past due payment any time you fail to pay the Minimum Payment Due by the payment due date. The fee will be
$29; or $40 for any additional past due payment during the next six billing cycles after a past due payment. However, the
fee will not exceed the amount permitted by law. We add this fee to the regular purchase balance.
Payments
Making Payments. You may pay all or part of your account balance at any time. However, you must pay at least the
Minimum Payment Due by the payment due date each billing cycle. The sooner you pay the New Balance, the less you
will pay in interest charges.
Minimum Payment Due. To calculate the Minimum Payment Due each billing cycle, we begin with any past due amount.
Then we add the amount due on each Major Purchase Plan balance, plus any amount required by the Promotion
Calculation, plus any amount due on each Special Rate Plan balance. We also add the largest of the following:
• The Calculated New Balance if it is less than $29;
• $29 if the Calculated New Balance is at least $29; or
• 1% of the Calculated New Balance plus the amount of your billed interest charges on that balance, any minimum
interest charge allocated to that balance, and any applicable late fee (the result is rounded up to the nearest dollar).
However, we subtract interest charges that accrued during prior billing cycles on a Deferred Interest Plan balance that
ended during the billing cycle covered by the statement.
The Calculated New Balance equals the New Balance on the billing statement, less any Major Purchase Plan balances,
the Promotion Calculation and any Special Rate Plan balances.
The Minimum Payment Due may reflect adjustments to the New Balance. The Minimum Payment Due is never more than
the Calculated New Balance plus three amounts. The first is any amount required by a Major Purchase Plan. The second
is any amount required by the Promotion Calculation. The third is any amount required by a Special Rate Plan.
Major Purchase Plan. The Minimum Payment Due will include any amount due on a Major Purchase Plan balance.
You must pay the amount due on a Major Purchase Plan balance, as described below, for so long as any portion of that
balance remains in that Major Purchase Plan. However, the amount due on a Major Purchase Plan balance will never be
more than the amount of that balance on the Statement Closing Date.
The amount due on each Major Purchase Plan balance each billing cycle is determined as follows:
• The purchase amount plus the major purchase plan fee, plus
• Interest charges calculated on the daily balance from the date of purchase through the end of the promotional period (assuming
that you pay the Minimum Payment Due on your account each month on the due date), the sum of which is divided by
• The number of months in the promotional period. (The result is rounded up to the nearest dollar.)
The formula we use for determining the amount described directly above is:
• The purchase amount plus the major purchase plan fee, multiplied by
• (APR / 12 ) / (1-(1 + APR / 12 )-N), rounded up to the nearest dollar. “APR” equals the specific APR applicable to the
purchase amount plus the major purchase plan fee, and “N” equals the number of months in the promotional period.
Promotion Calculation. The Minimum Payment Due will include any amount required by the Promotion Calculation. If you
have a Deferred Interest Plan subject to the Promotion Calculation, the Promotion Calculation will equal 1% of this balance
during the promotion period. (The result is rounded up to the nearest cent.) After the promotion period, any such remaining
promotional balance will be included in the Calculated New Balance. The Promotion Calculation will apply if, based on
the amount of the transaction as shown on the first statement that displays the transaction and the dollar amount in the
Minimum Payment Due calculation in effect at the time of the transaction, we determined that paying such dollar amount
each billing cycle would result in repayment of the promotional balance before the end of the promotion period.
Special Rate Plan. The Minimum Payment Due will include any amount due on a Special Rate Plan balance. The
amount due on each Special Rate Plan balance equals 1% of the Special Rate Plan balance, plus the amount of your
billed interest charges on that balance, if any, and any minimum interest charge allocated to that balance. (The result is
rounded up to the nearest dollar.) You must pay the amount due on a Special Rate Plan balance as described above until
that balance is paid in full.
Application of Payments. Payments in excess of the Minimum Payment Due are applied in accordance with law. This
means that we will generally apply payments in excess of the Minimum Payment Due to higher APR balances first.
However, excess payments received before a Deferred Interest Plan expires are applied to the Deferred Interest Plan
balance first in the last two billing cycles of the promotional period. Payments equal to or less than the Minimum Payment
Due and credits are applied at our discretion and you authorize us to apply payments and credits in a way that is most
favorable or convenient for us. This may include applying such payments and credits to lower APR balances first.

Payment Instructions. We credit your payments in accordance with our payment instructions on the billing statement.
You must pay us in U.S. dollars. To do so, you must use a check, similar instrument, or electronic debit that is drawn on
and honored by a bank in the U.S. Do not send cash. We can accept late or partial payments, or payments that reflect
“paid in full” or other restrictive endorsements, without losing our rights. We also reserve the right to accept payments
made in foreign currency and instruments drawn on funds on deposit outside the U.S. If we do, we select the currency
conversion rate. We will then credit your account in U.S. dollars after deducting any costs incurred in processing your
payment. Or we may bill you separately for these costs.
Credit Reporting
We may report information about your account to credit bureaus. Late payments, missed payments, or other defaults on
your account may be reflected in your credit report. We may report account information in your name. We may also obtain
follow-up credit reports on you.
If you think we reported incorrect information to a credit bureau, write us at the Customer Service address on the billing
statement. We will investigate the matter. We will then tell you if we agree or disagree with you. If we agree with you, we will
contact each credit bureau to which we reported and request a correction. If we disagree with you, we will tell you that.
Information Sharing
You authorize us to share information about you as permitted by law. This includes information we get from you and
others. It also includes information about your transactions with us. Please see our Privacy Notice for details about our
information sharing practices.
Changes to this Agreement
We may change the rates, fees, and terms of this Agreement from time to time as permitted by law. The changes
may add, replace, or remove provisions of this Agreement. We will give you advance written notice of the
changes and a right to opt out to the extent required by law.
Default
You default under this Agreement if you fail to pay the Minimum Payment Due by its due date; go over your credit limit;
pay by a check or similar instrument that is not honored or that we must return because it cannot be processed; pay
by electronic debit that is returned unpaid; file for bankruptcy; or fail to comply with the terms of this Agreement. If you
default, we may close your account and, to the extent permitted by law, demand immediate payment of the total balance.
Refusal of the Card, Closed Accounts, and Related Provisions
Refusal of the Card. We do not guarantee approval of transactions. We are not liable for transactions that are not
approved. That is true even if you have enough credit. We may limit the number of transactions approved in one day. If we
detect unusual or suspicious activity, we may suspend your credit privileges.
Preauthorized Charges. We may suspend any automatic or other preauthorized card charges you arrange with a third
party. We may do this if you default; if the card is lost or stolen; or we change your account for any reason. If we do this,
you are responsible for paying the third party directly if you wish to do so. You are also responsible for reinstating the
preauthorized charges if you wish to do so and we permit it.
Lost or Stolen Cards or Account Numbers. You must call us if any card or account number is lost or stolen. You
must also call us if you think someone used or may use them without permission. When you call, we may require you to
provide information to help our investigation. We may require you to provide this information in writing. For example, we
may ask you to identify any charges that were not made by you or someone authorized by you. We may also ask you to
confirm that you received no benefit from those charges.
Closing Your Account. You may close your account by notifying us in writing or over the phone. If you close your
account, you must still repay the total balance in accordance with this Agreement. We may also close your account or
suspend account privileges at any time for any reason. We may do this without prior notice to you. We may also reissue a
different card at any time. You must return any card to us upon request.
Protections for Active Duty Service Members and Their Dependents
Protections. Federal law provides important protections to members of the Armed Forces and their dependents relating
to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or
her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the
credit transaction or account: The costs associated with credit insurance premiums; fees for ancillary products sold
in connection with the credit transaction; any application fee charged (other than certain application fees for specified
credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit card
account). You are entitled to these protections if you are a Covered Borrower, as defined below.
Covered Borrower. You are a Covered Borrower if, in connection with the opening of your account, we determine you
are an active duty member of the Armed Forces (including active Guard and Reserve duty) or a dependent of an active
duty member. You will cease to be a Covered Borrower if we determine you are no longer an active duty member of the
Armed Forces (including active Guard and Reserve duty) or a dependent of an active duty member.
Oral Disclosures. If you are a Covered Borrower, you may obtain information related to your account, including
information about these protections and your payment obligation, by calling 1-877-625-6379.

Arbitration. The section of the Card Agreement entitled “ARBITRATION” does not apply if you are a Covered
Borrower at the time your account is opened.
ARBITRATION
PLEASE READ THIS PROVISION OF THE AGREEMENT CAREFULLY.
THIS SECTION PROVIDES THAT DISPUTES MAY BE RESOLVED BY BINDING ARBITRATION. ARBITRATION
REPLACES THE RIGHT TO GO TO COURT, HAVE A JURY TRIAL OR INITIATE OR PARTICIPATE IN A CLASS
ACTION. IN ARBITRATION, DISPUTES ARE RESOLVED BY AN ARBITRATOR, NOT A JUDGE OR JURY.
ARBITRATION PROCEDURES ARE SIMPLER AND MORE LIMITED THAN IN COURT. THIS ARBITRATION
PROVISION IS GOVERNED BY THE FEDERAL ARBITRATION ACT (FAA), AND SHALL BE INTERPRETED IN THE
BROADEST WAY THE LAW WILL ALLOW.
Covered claims
• You or we may arbitrate any claim, dispute or controversy between you and us arising out of or related to your account, a
previous related account or our relationship (called “Claims”).
• If arbitration is chosen by any party, neither you nor we will have the right to litigate that Claim in court or have
a jury trial on that Claim.
Except as stated below, all Claims are subject to arbitration, no matter what legal theory they’re based on or what remedy
(damages, or injunctive or declaratory relief) they seek, including Claims based on contract, tort (including intentional
tort), fraud, agency, your or our negligence, statutory or regulatory provisions, or any other sources of law; Claims made
as counterclaims, cross-claims, third-party claims, interpleaders or otherwise; Claims made regarding past, present,
or future conduct; and Claims made independently or with other claims. This also includes Claims made by or against
anyone connected with us or you or claiming through us or you, or by someone making a claim through us or you, such
as a co-applicant, authorized user, employee, agent, representative or an affiliated/parent/subsidiary company.
Arbitration limits
• Individual Claims filed in a small claims court are not subject to arbitration, as long as the matter stays in small claims
court.
• We won’t initiate arbitration to collect a debt from you unless you choose to arbitrate or assert a Claim against us. If you
assert a Claim against us, we can choose to arbitrate, including actions to collect a debt from you. You may arbitrate on
an individual basis Claims brought against you, including Claims to collect a debt.
• Claims brought as part of a class action, private attorney general or other representative action can be arbitrated only on
an individual basis. The arbitrator has no authority to arbitrate any claim on a class or representative basis and may award
relief only on an individual basis. If arbitration is chosen by any party, neither you nor we may pursue a Claim as part of
a class action or other representative action. Claims of 2 or more persons may not be combined in the same arbitration.
However, applicants, co-applicants, authorized users on a single account and/or related accounts, or corporate affiliates
are here considered as one person.
How arbitration works
• Arbitration shall be conducted by the American Arbitration Association (“AAA”) according to this arbitration provision and
the applicable AAA arbitration rules in effect when the claim is filed (“AAA Rules”), except where those rules conflict with
this arbitration provision. You can obtain copies of the AAA Rules at the AAA’s website (w w w.adr.org) or by calling 800778-7879. You or we may choose to have a hearing, appear at any hearing by phone or other electronic means, and/or
be represented by counsel. Any in-person hearing will be held in the same city as the U.S. District Court closest to your
billing address.
• Arbitration may be requested any time, even where there is a pending lawsuit, unless a trial has begun or a final judgment
entered. Neither you nor we waive the right to arbitrate by filing or serving a complaint, answer, counterclaim, motion, or
discovery in a court lawsuit. To choose arbitration, a party may file a motion to compel arbitration in a pending matter and/
or commence arbitration by submitting the required AAA forms and requisite filing fees to the AAA.
• The arbitration shall be conducted by a single arbitrator in accord with this arbitration provision and the AAA Rules,
which may limit discovery. The arbitrator shall not apply any federal or state rules of civil procedure for discovery, but the
arbitrator shall honor claims of privilege recognized at law and shall take reasonable steps to protect account information
and other confidential information of either party if requested to do so. The arbitrator shall apply applicable substantive law
consistent with the FAA and applicable statute of limitations, and may award damages or other relief under applicable law.
• The arbitrator shall make any award in writing and, if requested by you or us, may provide a brief statement of the reasons
for the award. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and
shall not have any bearing on any other person or dispute.
Paying for arbitration fees
• We will pay your share of the arbitration fee for an arbitration of Claims of $75,000 or less if they are unrelated to debt
collection. Otherwise, arbitration fees will be allocated according to the applicable AAA Rules. If we prevail, we may not
recover our arbitration fees, unless the arbitrator decides your Claim was frivolous. All parties are responsible for their

own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or expenses to you or
us based on applicable law.
The final award
• Any award by an arbitrator is final unless a party appeals it in writing to the AAA within 30 days of notice of the award.
The arbitration appeal shall be determined by a panel of 3 arbitrators. The panel will consider all facts and legal issues
anew based on the same evidence presented in the prior arbitration, and will make decisions based on a majority vote.
Arbitration fees for the arbitration appeal shall be allocated according to the applicable AAA Rules. An award by a panel
on appeal is final. A final award is subject to judicial review as provided by applicable law.
Survival and Severability of Terms
This arbitration provision shall survive changes in this Agreement and termination of the account or the relationship
between you and us, including the bankruptcy of any party and any sale of your account, or amounts owed on your
account, to another person or entity. If any part of this arbitration provision is deemed invalid or unenforceable, the other
terms shall remain in force, except that there can be no arbitration of a class or representative Claim. This arbitration
provision may not be amended, severed or waived, except as provided in this Agreement or in a written agreement
between you and us.
Rules for rejecting this arbitration provision
You may reject this arbitration provision by sending a written rejection notice to us at: P.O. Box 790340, St. Louis,
MO 63179. Your rejection notice must be mailed within 45 days of account opening. Your rejection notice must state
that you reject the arbitration provision and include your name, address, account number and personal signature. No
one else may sign the rejection notice. Your rejection notice will not apply to the arbitration provision(s) governing any
other account(s) that you have or had with us. Rejection of this arbitration provision won’t affect your other rights or
responsibilities under this Agreement, including use of the account.
Governing Law and Enforcing our Rights
Governing Law. Federal law and the law of South Dakota, where we are located, govern the terms and enforcement of
this Agreement.
Enforcing this Agreement. We will not lose our rights under this Agreement because we delay in enforcing them or fail
to enforce them.
Collection Costs. To the extent permitted by law, you are liable to us for our legal costs if we refer collection of your
account to a lawyer who is not our salaried employee. These costs may include reasonable attorneys’ fees. They may
also include costs and expenses of any legal action.
Assignment. We may assign any or all of our rights and obligations under this Agreement to a third party.
For Further Information
Call us toll-free for further information. Call the toll-free Customer Service telephone number shown on the billing
statement or on the back of your card. You can also call local or toll-free Directory Assistance to get our telephone
number.
Your Billing Rights:
Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address for billing inquiries and correspondence shown
on the front of your statement.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe
it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any
potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error.

2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is
correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still
refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill.
We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know
when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is
correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good
faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on
an advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the address for
billing inquiries and correspondence shown on the front of your statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we
will tell you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.
© 2020 Citibank, N.A.

TOR-EXM-0120

